                        SPECTO
                   IN            R 
              F                       G
          O                               E
     E




                                          N
     C




                                              E
FI




                                              RA
OF




                                                  L
                                                      OFFICE OF INSPECTOR GENERAL
	
                                                           EXPORT-IMPORT BANK 

                                                            of the UNITED STATES
	




                Export-Import Bank’s 

                   Management of
	
               Direct Loans and Related
                      Challenges
	


                                                                 September 26, 2013
                                                                       OIG-AR-13-05
To:	        John McAdams
            Vice Chair and Chief Operating Officer

            David Sena
            Senior Vice President and Chief Financial Officer

            Fernanda Young

            Chief Information Officer


From:       Rebecca Sharek
            Assistant Inspector General for Audits

Subject:    Audit of Export-Import Bank’s Management of Direct Loans and
            Related Challenges, Report No. OIG-AR-13-05

Date:       September 26, 2013

Attached please find the final report of our audit of Export-Import Bank’s
management of direct loans and related challenges. The report contains four
recommendations for corrective action. In response to a draft of the report,
management concurred with the recommendations. Management’s response is
included as an appendix to the final report.

We consider management’s proposed actions to be responsive. The
recommendations will be closed upon completion and verification of the proposed
actions.

We appreciate the courtesies and cooperation extended to us during the audit. If
you have questions, please contact me at (202) 565-3169 or
rebecca.sharek@exim.gov.


cc:	    Fred Hochberg, Chairman and President
        Claudia Slacik, Senior Vice President, Export Finance
        Kenneth Tinsely, Senior Vice President, Credit Management
        Michael Cushing, Senior Vice President, Resource Management
        James Cruse, Senior Vice President, Policy & Planning
        Scott Schloegel, Senior Vice President, Congressional Affairs
        John Schuster, Vice President, Structured & Project Finance
        Walter Hill, Jr., Vice President, Credit Review & Compliance
        David Carter, Vice President, Credit Policy
        Inci Tonguch-Murray, Business Compliance Officer


                   811 Vermont Avenue, NW Washington, D.C. 20571
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


              The Export-Import Bank of the United States (Ex-Im Bank)
              is the official export-credit agency of the United States.
              Ex-Im Bank is an independent, self-sustaining executive
              agency and a wholly-owned U.S. government corporation.
              Ex-Im Bank’s mission is to support jobs in the United States
              by facilitating the export of U.S. goods and services. Ex-Im
              Bank provides competitive export financing and ensures a
              level playing field for U.S. exports in the global
              marketplace.

              The Office of Inspector General, an independent office
              within Ex-Im Bank, was statutorily created in 2002 and
              organized in 2007. The mission of the Ex-Im Bank Office of
              Inspector General is to conduct and supervise audits,
              investigations, inspections, and evaluations related to
              agency programs and operations; provide leadership and
              coordination as well as recommend policies that will
              promote economy, efficiency, and effectiveness in such
              programs and operations; and prevent and detect fraud,
              waste, abuse, and mismanagement.



ACRONYMS
AMD                           Asset Management Division
Boeing                        Boeing Space and Intelligence Systems
CB&I                          Chicago Bridge and Iron Americas Ltd. of Texas
CRTI                          Character, Reputational and Transaction Integrity
E&E                           Engineering and Environment Division
Ex-Im Bank or the Bank        Export-Import Bank of the United States
FMS                           Financial Management Service
FY                            Fiscal Year
GAO                           Government Accountability Office
Inmarsat                      Inmarsat Investment Ltd.
Loan Manual or the Manual     Ex-Im Bank Loan, Guarantee and Insurance Manual
NARA                          National Archives and Records Administration
OCFO                          Office of the Chief Financial Officer
ODQ                           Operations & Data Quality Division
OGC                           Office of General Counsel
OIG                           Office of Inspector General
OMB                           Office of Management and Budget
                              Information and Records Management Division of the Office of the
Records Management
                                  Chief Information Officer
Records Management Officer    Information Quality and Records Management Officer
REFICAR                       Refineria de Cartagena S.A.
SPFD                          Structured & Project Finance Division
Treasury                      Department of the Treasury



                                   AUDIT REPORT OIG-AR-13-05
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Executive Summary                                  Export-Import Bank’s Management of Direct
                                                   Loans and Related Challenges
                                                   Audit Report OIG-AR-13-05
                                                   September 26, 2013


Why We Did This Audit                        What We Found
Through competitive term financing, the      Ex-Im Bank updated its policies to reflect new statutory
Export-Import
        -        Bank of the U.S. (Ex-Im
                                       -     requirements and is looking for ways to streamline its business
Bank or the Bank) provides fixed-rate
                                             processes. The Bank is also establishing an Enterprise Risk
loans to foreign buyers of U.S. goods and
services. Such direct loans generally        Committee and developing a plan to address new Office of
exceed $10 million and provide foreign       Management and Budget (OMB) requirements. These actions
buyers financing at the most favorable       represent good faith efforts to improve internal controls and
terms allowed. In light of the recent        overall credit program management. However, as a result of
                                   -
international financial crisis, Ex-Im        inadequate recordkeeping, overreliance on institutional
Bank's’ direct loan authorizations           knowledge, and a lack of mechanisms necessary to ensure
increased from $0 in fiscal year (FY)        compliance with Federal and agency credit program policies, we
2007 to $11.8 billion in FY 2012. During     found that Ex-Im Bank loan officers and other personnel did not
                     - Bank's
the same period, Ex-Im          ’ exposure
                                             always document sufficient evidence for borrower statements
to loans tripled from 9 percent to
                                             regarding the need for Ex-Im Bank financing, or perform or
27 percent of the Bank’s total portfolio/
As a result, we reviewed the Bank's  ’       document performance of other required tasks. Those tasks
management of direct loan transactions,      included (1) completing checklists intended to ensure borrower
including its compliance with Federal        eligibility, completeness of loan applications, and collection of all
and agency credit program policies. Our      required commitment documents; and (2) documenting Character,
audit included a sample of 6 of the          Reputational and Transaction Integrity due diligence reviews prior
40 direct loans authorized and managed       to loan approval.
by the Structured & Project Finance
Division between FYs 2010 and 2012.          Also, although Ex-Im Bank’s policies are largely consistent with
Sampled loans were underwritten by           many fundamentals of Federal credit program policies, Ex-Im Bank
approximately half of the division’s loan    has not formally adopted key OMB and Department of Treasury
officers and totaled $7.3 billion (or        policy documents/ As a result, the Bank’s policies and procedures
33 percent) of the total $22.4 billion in    do not expressly address Federal requirements, including new
loans authorized during the period.          requirements in OMB Circular A-129, “Policies for Federal Credit
                                             Programs and Non-Tax Receivables,” revised in January 2013/
What We Recommended
To improve Ex-Im- Bank's ’ management        Finally, Ex-Im Bank faces several challenges that, although not
of direct loans and related challenges,      unique to direct loans, may impact the Bank’s management of the
the Bank should (1) maintain additional      direct loan portfolio. These challenges include:
documentation to support the need for             fragmented recordkeeping practices;
Ex-Im
   - Bank financing; (2) adopt key
OMB and Treasury policies by revising             complex business processes; and
agency policies and procedures;                   growing demand for Ex-Im Bank support.
(3) develop mechanisms to ensure
compliance with Federal and agency           Separately managing each challenge is difficult enough, but because
credit program policies; and                 they are inherently related they present additional complications
(4) evaluate recordkeeping practices         and require management’s attention/
and implement a plan to timely address
deficiencies found. Management
concurred with the recommendations,
which will be closed upon completion         For additional information, contact the Office of the Inspector General at
and verification of corrective action.       (202) 565-3908 or visit www.exim.gov/oig.

                                              AUDIT REPORT OIG-AR-13-05
                                                             i
                     EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




 TABLE OF CONTENTS


INTRODUCTION
  Background __________________________________________________1
  Objectives____________________________________________________5

RESULTS
  Improvements Are Needed to Ensure Compliance with Federal
     and Ex-Im Bank Credit Program Policies _________________________7
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response ____________________________________17
  Ex-Im Bank Faces Challenges That May Impact Efficient and
     Effective Management of the Direct Loan Portfolio ________________19
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response ____________________________________28

APPENDIX A
  Scope and Methodology ________________________________________29
  Review of Internal Controls _____________________________________30
  Federal Laws, Regulations, Policies, and Guidance ___________________30
  Prior Coverage _______________________________________________31

APPENDIX B
  Previously Required Checklists for Long-Term Loans and Guarantees ____33

APPENDIX C
  Flowchart: Processes for SPFD Loan Application Intake through
  Board of Directors’ Approval ____________________________________36

APPENDIX D
  Key Participants in the Project Finance Application Process ____________38

APPENDIX E
  Management Comments _______________________________________39


                               AUDIT REPORT OIG-AR-13-05
                                            ii
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                                       INTRODUCTION


Background
  The main financial products of the Export-Import Bank of the United States (Ex-Im Bank or
  the Bank) are (1) export credit insurance, (2) working capital guarantees, (3) loan
  guarantees, and (4) direct loans. Through direct loans, Ex-Im Bank provides foreign buyers
  of U.S. capital goods and services fixed-rate financing in amounts generally exceeding
  $10 million. Offered at the most favorable terms allowed under international economic
  agreements, Ex-Im Bank direct loans cover up to 85 percent of the U.S. contract value of the
                                                     exported goods, and 100 percent of the
     Example of Ex-Im Bank Direct Loan. In           transaction’s commercial and political risks –
     2012, Ex-Im Bank authorized a nearly $2 billion risks that commercial institutions are unwilling
     direct loan to the Barakah One Company of the   to take. Direct loan financing is available for
     United Arab Emirates to finance the purchase    medium- and long-term transactions, although
     of U.S. goods and services needed to construct  most direct loans are long-term with repayment
     a nuclear power plant near the city of Abu
                                                     terms in excess of 7 years.
       Dhabi. The facility will be built with equipment
       and expertise including reactor coolant pumps,
                                              According to the Congressional Research Service,
       reactor components, and engineering services
                                              prior to 1980, direct lending was Ex-Im Bank’s
       exported by American companies from
                                              chief financing vehicle.1 In June 2009, Ex-Im
       17 states. According to Ex-Im Bank, the loan
                                              Bank’s Direct Lending Working Group reported
       will support approximately 5,000 American
       jobs.                                  that since the Bank’s founding in 1934, it has
                                              disbursed more than $64 billion under the direct
                                              loan program.2 However, during the 1980s Ex-Im
  Bank’s direct lending authority became a target for constant budget cuts, falling from
  $5.4 billion in 1981 to $695 million in 1989.3 Demand for Ex-Im Bank direct loans has been
  limited in the past decade because commercial interest rates were low. Yet, in light of the
  recent international financial crisis and in part due to overall growth in U.S. exports, Ex-Im
  Bank has experienced substantial growth in loan transactions. As shown in Figure 1, direct
  loan authorizations increased from $0 (0 loans) in fiscal year (FY) 2007 to $11.8 billion
  (20 loans) in FY 2012. During the same period, Ex-Im Bank’s exposure due to outstanding
  and undisbursed direct loans tripled from 9 percent to 27 percent of the Bank’s total
  portfolio.




  1   Congressional Research Service, “Export-Import Bank. Background and Legislative Issues,” April 3, 2012.
  2   Ex-Im Bank Direct Lending Policy, June 1, 2009.
  3Opening statement of the Hon. Walter E. Fauntroy, Chairman of the House of Representatives Subcommittee
  on International Development, Finance, Trade and Monetary Policy at the May 10, 1989, hearing entitled
  “Future of the Export-Import Bank’s Direct Lending Program/”


                                                  AUDIT REPORT OIG-AR-13-05
                                                             1

                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


               Figure 1. Growth in Direct Loan !uthorizations
                                            FY 2007 - 2012
	
           $14,000.0
                                                                     20
           $12,000.0
           $10,000.0
            $8,000.0
                                                              18             Loan Value
            $6,000.0                                                         (in millions)
                                                     15
            $4,000.0                        16
            $2,000.0
                           0        2
                $0.0
                         2007     2008     2009     2010     2011   2012
           Source: Ex-Im Bank annual reports, 2007 – 2012.


In addition to the increase in direct loan authorizations, since FY 2008 Ex-Im Bank’s overall
exposure has shifted from primarily sovereign governments and other public-sector
borrowers to primarily private-sector borrowers. This shift in exposure increases Ex-Im
Bank’s inherent portfolio risk by increasing exposure to credits not guaranteed by foreign
governments.

Federal Credit Program Policies, Roles, and Responsibilities. Designing and managing
Federal credit policies and programs, such as Ex-Im Bank’s direct loan program, is a shared
responsibility between the Office of Management and Budget (OMB), the Department of the
Treasury (Treasury), and credit-granting Federal departments and agencies. OMB’s
general responsibilities for oversight of Federal credit programs include but are not limited
to:

   	 approving agency credit management and debt collection plans;

   	 developing and maintaining the Federal credit subsidy calculator used to calculate
      the cost of credit programs;

   	 formulating and reviewing agency credit reporting standards and requirements, and
      implementation of credit management and debt collection policy; and

   	 working with agencies to identify and implement common policies, processes, or
      other resources to increase efficiency of credit program portfolio management
      functions.

OMB Circular No. A-129, “Policies for Federal Credit Programs and Non-Tax Receivables,
(Revised)” prescribes policies and procedures for designing and managing Federal credit
programs. The Circular applies to all Federal government credit programs, including Ex-Im
Bank’s direct loan program/ In January 2013, OMB made substantial revisions and
additions to Circular No. A-129, rescinding and replacing the previous version, dated

                                        AUDIT REPORT OIG-AR-13-05
                                                      2

                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


November 2000. These changes included (1) emphasizing measurement of risk,
(2) determining how well Federal credit

programs meet their policy goals, and            The January 2013 revision of OMB Circular No.

(3) establishing more robust standards for in-   A-129 includes four new appendices that 

depth program reviews, management and            address: 

oversight structures, data-driven reporting, and   1. Required biennial reviews of each credit 

effective communications.                             program to inform budget, management, 

                                                                and policy decisions;
Treasury works with OMB to develop policies                  2. Establishment of robust management and
and review legislation to create, expand, or                    oversight structures to monitor each
modify credit programs. Treasury’s Financial                    program’s progress and take action where
Management Service (FMS) “Managing Federal                      appropriate;
Receivables” (May 2005) provides Federal                     3. Effective data-driven reporting to drive
agencies with a general overview of standards,                  decision-making and support strong credit
guidelines, and procedures for the successful                   program management and oversight; and
management of credit activities. The document                4. Creation of effective credit program
covers management functions for direct loan                     communications policies to meet agency
programs and generally must be followed by all                  responsibilities for internal controls.
Federal agencies.

Federal departments and agencies are responsible for managing credit programs in
accordance with their statutory authorities and the provisions of OMB and Treasury
policies. OMB Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables” state
that agencies shall ensure that (1) Federal credit program legislation, regulations, and
policies are designed and administered in compliance with the principles of the Circular
and Treasury regulations and supplementary guidance; (2) the costs of credit programs are
budgeted for and controlled in accordance with federal law; and (3) credit programs are
designed and administered in a manner that most effectively and efficiently achieves policy
goals while minimizing taxpayer risk. To achieve these objectives, agencies shall take
specific actions including but not limited to:

   	 ensuring OMB and Treasury requirements and standards are incorporated into
      agency regulations, policies, and procedures;

   	 operating credit programs under robust management and oversight structures and
      taking action to improve or maintain efficiency and effectiveness;

   	 making every effort to effectively target Federal assistance and mitigate risk by
      ensuring that credit program participants meet all eligibility, financial, and
      programmatic requirements;

   	 establishing appropriate internal controls over programmatic functions and

      operations; and


   	 evaluating credit programs’ effectiveness in achieving program goals, including
      conducting program reviews at least once every 2 years, or as approved by OMB.


                                    AUDIT REPORT OIG-AR-13-05
                                                3

                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank Credit Program Policies, Roles, and Responsibilities. In addition to
Government-wide policies, agencies maintain their own regulations, policies, and
procedures for managing credit programs. The Ex-Im Bank Loan, Guarantee and Insurance
Manual (Loan Manual or the Manual) describes the Bank’s credit policies, procedures,
roles, and responsibilities, including those for direct loans. Procedures in the Manual
address Ex-Im Bank credit activities beginning with the receipt of an application for
financing through the point at which authorized financing is ready for use.


                The Ex-Im Bank
                Loan Manual is           Establish a framework for sound
                Intended to:             credit decisions

                                         Communicate to employees the
                                         requirements governing the
                                         extension of credit

                                         Encourage documentation and
                                         consistent application of credit
                                         policies and procedures



In January 2013, Ex-Im Bank revised the previous version of the Loan Manual, dated
October 1999.4 By revising the Manual, Ex-Im Bank sought to (1) provide loan officers with
current information to carry out their duties for administering and underwriting
transactions, and (2) consolidate policies and procedures for all Ex-Im Bank underwriting
programs.

In addition to the Loan Manual, Ex-Im Bank divisions maintain various policies, procedures,
manuals, and handbooks which provide more comprehensive explanations of the Bank’s
credit activities, including those for direct loans. Appendix A provides a list of Ex-Im Bank
credit program policies and procedures.

Loan officers from the following three divisions within the Export Finance Group generally
underwrite and process direct loans with input from other divisions, depending on the
complexity of the transaction:

    1.	 Structured & Project Finance Division (SPFD). Processes applications for project
        financing, as well as long-term corporate risk transactions, including direct loans.

    2.	 Trade Finance Division. Processes applications for long-term sovereign, financial
        institution risk and certain corporate risk transactions, medium-term guarantees,
        and medium- and short-term credit insurance.

4As needed, Ex-Im Bank divisions updated chapters of the Loan Manual between the 1999 and 2013
revisions/ For example, Chapter 7, “Standard Long-term Preliminary Commitments and Final Commitments”
was updated in December 2009 and Chapter 14, “Project Finance” was updated in December 2009 and
December 2012.


                                     AUDIT REPORT OIG-AR-13-05
                                                     4

                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


     3.	 Transportation Division. Processes applications for loans and guarantees related
         to the export of aircraft and ancillary equipment, as well as asset-based rail
         transactions.

  Of the three divisions, SPFD manages the majority of Ex-Im Bank’s direct loan transactions.
  Specifically, SPFD manages 74 percent (or 40) of the 54 loans authorized between FY 2010
  and FY 2012, which represent 95 percent of the value of Ex-Im Bank’s entire direct loan
  portfolio during the period. In contrast, the Transportation and Trade Finance divisions
  together manage the remaining 26 percent (only 7 loans each). Furthermore, SPFD
  manages all three types of direct loans offered by Ex-Im Bank:

     1.	 Project finance. An arrangement in which Ex-Im Bank lends to newly created
         project companies and looks to the project's future cash flows as the source of
         repayment instead of relying directly on foreign governments, financial institutions,
         or established corporations for repayment of the debt.

     2.	 Structured finance. Allows Ex-Im Bank to consider existing companies overseas as
         potential borrowers based on their creditworthiness as reflected on their balance
         sheet and other sources of collateral or security enhancements.

     3.	 Standard long-term. Loans with a financed amount (excluding exposure fee)
         exceeding $10 million or a repayment term exceeding 7 years, which are not
         categorized as either project or structured finance transactions.


Objectives
  Our objectives were to determine whether Ex-Im Bank effectively managed direct loan
  transactions and complied with Federal and agency credit program policies and
  procedures. To accomplish our objectives, we reviewed 6 of the 40 (15 percent) direct
  loans authorized and underwritten by SPFD between FY 2010 and FY 2012 (see Figure 2).
  Sampled loans were underwritten by 5 of the approximately 10 SPFD loan officers during
  the period. Further, sampled loans totaled $7.3 billion, or 34 percent of the total
  $21.3 billion in loans authorized by SPFD and 33 percent of the total $22.4 billion in loans
  authorized by Ex-Im Bank during the period.




                                     AUDIT REPORT OIG-AR-13-05
                                                 5

                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                            Figure 2. Loans Selected for Review
                                       Amount
     FY                                Financed        Financing
                     Borrower                                             To support the purchase of U.S. . . .
 Authorized                                (in           Type
                                        millions)

                                                                      Equipment and expertise needed to
                 Barakah One                           Standard

    2012                                $1,988.2                      construct a nuclear power plant near
                 Company                              Long-Term

                                                                      Abu Dhabi, United Arab Emirates.

                 Punj Lloyd                                            Thin-film solar photovoltaic modules for
                                                        Project

    2011         Solar Power                 $9.2                      a five-megawatt solar project near
                                                        Finance

                 Ltd.a                                                 Jodhpur, India.
                                                                   Communications satellites to meet the
                 Inmarsat
                                                      Structured 
 growing demand for mobile satellite
    2011         Investment               $700.0
                                                       Finance
    services in the maritime and energy
                 Ltd.
                                                                   sectors.
                                                                      Equipment and services required for a
                 Refineria de                           Project

    2011                                $2,343.6                      refinery and upgrade project in
                 Cartagena S.A.                         Finance

                                                                      Cartagena, Colombia.
                 Mahmood
                                                                      Aluminum/steel can-making equipment
                 Saeed                                 Standard

    2010                                    $59.8                     for a new aluminum can manufacturing
                 Collective                           Long-Term

                                                                      facility in Jeddah, Saudi Arabia.
                 Company
                 Papua New
                                                                      Equipment and services needed for a
                 Guinea LNG                             Project

    2010                                $2,200.0                      liquefied natural gas project near Port
                 Global                                 Finance

                                                                      Moresby, Papua New Guinea.
                 Company Ldc
                 Total                  $7,300.8
 Source: Ex-Im Bank annual reports, 2010 – 2012; loan documentation files; and Ex-Im Bank press releases.

 aThe direct loan to Punj Lloyd Solar Power Ltd. was converted to a loan guarantee after authorization.





See Appendix A for details of the audit’s scope and methodology, including sample
methodology; our review of internal controls; applicable federal laws, regulations, policies,
and guidance; and a list of prior audit coverage.




                                           AUDIT REPORT OIG-AR-13-05
                                                          6

                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                               RESULTS


Improvements Are Needed to Ensure Compliance with Federal and
Ex-Im Bank Credit Program Policies
  To protect the Government’s assets and minimize losses, Federal agencies should manage
  credit programs in accordance with their statutory authorities and the provisions of OMB
  Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables/” However, our
  review of a sample of Ex-Im Bank direct loans identified instances of noncompliance with
  Federal and agency policies. Specifically, we found that loan officers did not always
  document sufficient evidence for borrower statements regarding the need for Ex-Im Bank
  financing. Also, loan officers did not always perform or document performance of required
  tasks intended to ensure (1) borrower eligibility and compliance with Ex-Im Bank credit
  policies and standards, (2) completeness of loan applications, (3) collection and
  maintenance of all required documents, and (4) that comprehensive Character,
  Reputational and Transaction Integrity (CRTI) due diligence reviews were completed and
  documented prior to loan approval. These conditions occurred in part as a result of
  inadequate recordkeeping (discussed further on page 19) and reliance on institutional
  knowledge instead of policies and procedures.

  In addition, although Ex-Im Bank’s Loan Manual and other credit program policies were
  largely consistent with OMB and Treasury policies, Ex-Im Bank has not formally adopted
  OMB Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables.” As a result,
  the Bank’s policies and procedures do not expressly address OMB and Treasury
  requirements, including new OMB requirements for managing Federal credit programs.
  Moreover, although the Loan Manual is intended to communicate requirements to Ex-Im
  Bank employees and encourage documentation and consistent application of credit policies
  and procedures, Ex-Im Bank has not established mechanisms necessary to ensure
  compliance with those requirements, policies, and procedures.

  Ex-Im Bank is establishing an Enterprise Risk Committee and the Office of the Chief
  Financial Officer (OCFO) is developing an implementation plan to address new OMB
  requirements. However, additional management attention is warranted to ensure that
  Ex-Im Bank (1) formally adopts OMB Circular No. A-129 and Treasury/FMS, “Managing
  Federal Receivables,” (2) specifically addresses provisions of both documents in agency
  policies and procedures, and (3) develops mechanisms to ensure that loan officers and
  other Bank personnel comply with Federal and agency credit program policies.




                                    AUDIT REPORT OIG-AR-13-05
                                                7

                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Lack of Documented Support for Statements Regarding Additionality
According to the Ex-Im Bank Policy Handbook, each transaction the Bank supports fosters
additional exports, or exports that would not occur without Bank financing.5 Ex-Im Bank’s
Charter also states, “It is the policy of the United States to support the expansion of exports
. . . It is also the policy of the United States that the Bank in exercise of its functions
supplement and encourage, and not compete with, private capital . . . .”6 Therefore, before
authorizing each transaction, Ex-Im Bank staff must determine the probability that the
export in question would likely not go forward without the Bank’s financial support. This
probability is referred to as the transaction’s “additionality.” The primary considerations
in determining additionality are:

                                                          1. Competing financing offered by a foreign
      “Additionality” is the probability that a           export credit agency – i.e., Ex-Im Bank support is
      transaction would not go forward without Ex-Im      needed to “level the playing field” and give U.S.
      Bank support. As stated in Ex-Im Bank’s Policy      exporters access to financing competitive with
      Handbook, “The concept of additionality has its     that offered by other countries.
      roots in broad U.S. economic policy . . . [which]
      states that U.S. government resources are a         2. Limitations in private-sector financing,
      limited commodity and only in rare cases            including the lack of commercial financing at
      should these limited resources be used on an        economically viable terms (as defined in the
      entitlement basis. Rather, taxpayers [sic]          Policy Handbook), or the existence of
      dollars ought to be channeled to those entities
                                                          commercial or political risk that the exporter or
      that actually need the support.”
                                                          private financial institutions are unwilling or
                                                          unable to undertake – i.e., Ex-Im Bank support is
                                                          needed to fill a financing gap.

Federal and Ex-Im Bank Policy for Documenting, Assessing, and Confirming the Need
for Government Assistance. OMB Circular No. A-129 and Treasury/FMS, “Managing
Federal Receivables,” emphasize ensuring that Federal support is truly needed and
information supporting that need is obtained and documented prior to extending credit.
Both documents state, “Federal credit assistance should be provided only when it is
necessary and the best method to achieve clearly specified Federal objectives. Use of
private credit markets should be encouraged, and any impairment of such markets or
misallocation of the nation's resources through the operation of Federal credit programs
should be minimized.”7 OMB Circular No. A-129 also states, “If it is consistent with
program objectives, borrowers should be required to certify and document that they have
been unable to obtain credit from private sources/”8 Treasury/FMS, “Managing Federal
Receivables,” further requires that loan files include a certification by the borrower that


5   Ex-Im Bank Policy Handbook, chapter entitled “Additionality,” June 2005/
	
6   Export-Import Bank Act of 1945 (12 U.S.C. 635) as amended, Section 2(b)(1)(B).

7OMB Circular No. A-129, Section II, November 2000 and January 2013- and Treasury/FMS, “Managing 

Federal Receivables,” Chapter 2, May 2005/
8   OMB Circular No. A-129, Section III(A)(1)(a), “Applicant Screening,” November 2000 and January 2013/


                                                 AUDIT REPORT OIG-AR-13-05
                                                             8

                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


private sector financing was denied or a copy of the application for private sector financing
with the letter denying the loan.

Ex-Im Bank’s Loan Manual – Chapter 14, “Project Finance,” which governs SPFD’s
management of project finance transactions, including direct loans – also requires
applicants to disclose all sources approached for financing and provide a “clear articulation
of the need for Ex-Im Bank coverage/”9 Articulating the need for Ex-Im Bank financing
occurs on the application form where applicants must check the appropriate box next to
one of several questions indicating the rationale for Bank support, and provide supporting
details. The Bank’s Policy Handbook states that relationship managers (loan officers) will
then “confirm the information provided [emphasis added]” and report the reason Ex-Im
Bank financing is needed in the final memo seeking approval of the loan.10 Consequently,
applications for Ex-Im Bank financing must be accompanied by sufficient, relevant
information such that staff can determine whether the transaction meets the additionality
test. If applications are incomplete or insufficient, the Loan Manual instructs staff to
contact the applicant, obtain additional information, and write any additional information
on the application.

Review of Support for Additionality. To assess whether statements regarding
additionality were confirmed by loan officers and documented with sufficient supporting
information, we interviewed loan officers for the loans included in our sample. We also
reviewed documents maintained in application files and publicly available information.

The application for the loan to Mahmood Saeed Collective Company did not include a clear
response to questions regarding the need for Ex-Im Bank support, although the memo to
the Board of Directors requesting approval of the loan stated, “The Company approached
Ex-Im Bank due to the lack of long term financing for private companies in the market/” No
additional information was included in the file to support this statement. Sufficient
documentation could have included evidence that the borrower sought private financing
and was denied, such as a copy of the application form for private sector financing with the
letter denying the loan. When questioned, the responsible loan officer stated that she may
have received an e-mail from the applicant containing the information necessary to
determine whether the loan met the additionality test; yet, she could not provide the
e-mail.

The applications for four transactions in our sample – loans to Punj Lloyd Solar Power Ltd.,
Inmarsat Investment Ltd. (Inmarsat), Refineria de Cartagena S.A. (REFICAR), and Papua
New Guinea LNG Global Company Ldc – included responses to questions regarding the
need for Ex-Im Bank support. But none of the loan files contained documentation sufficient
to substantiate applicants’ assertions.



9“Structured Finance Division Project Criteria and Application Information Requirements,” contained in
Appendix 14-D of the Loan and Guarantee Manual, October 1999 (Appendix 14-F in the 2013 revision to the
Manual).
10   Ex-Im Bank Policy Handbook, chapter entitled “Additionality,” June 2005/


                                          AUDIT REPORT OIG-AR-13-05
                                                        9

                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Specifically, the direct loan application for Inmarsat
indicated the need for Ex-Im Bank financing
because the company sought to purchase three
satellites from Boeing Space and Intelligence
Systems of California (Boeing). Inmarsat stated that
Boeing faced strong competition from a French
competitor who was backed by the French export
credit agency (by Ex-Im Bank policy, this is a
legitimate reason for support); therefore, Ex-Im
Bank financing was necessary to make the sale of
Boeing’s satellites competitive. Ex-Im Bank’s press
release on the loan stated that, “The Bank's support
helped Boeing Space and Intelligence Systems win
the contract over competition backed by a foreign
export-credit agency/” In addition to the existence             Illustration of Boeing Ka-band 702HP satellite.
                                                                Source: Ex-Im Bank press release dated May 13,
of foreign competition, Inmarsat’s application stated
                                                                2011, announcing approval of Inmarsat’s direct
there was “no availability of economically viable               loan.
interest rates on terms over one to two years/”

However, the loan file contained no evidence of the company’s attempts to attain long-term
commercial financing, or an explanation of how Ex-Im Bank support would help Boeing win
the sales contract over their foreign competitor. Additionally, according to a company
press release on the matter, the Inmarsat Chief Financial Officer stated, “We expect the
Inmarsat-5 programme to be largely funded from our internally generated cash flows and,
with significant available liquidity today, we see no immediate financing needs. In
connection with the Boeing contract, we are seeking Export Credit Agency financing
support from the US Ex-Im Bank, which could provide an attractive source of long-term
debt.”11 Based on these factors and the lack of information in the loan file, we were unable
to verify the need for Ex-Im Bank support.

In the case of another loan we reviewed, REFICAR applied for a direct loan as part of a
$5 billion refinery and upgrade project in Cartagena. The loan was needed to purchase
equipment and engineering and design, contracting, and process licensing services from
over 150 U.S. companies including Chicago Bridge and Iron Americas Ltd. of Texas (CB&I),
the primary exporter. On its loan application, REFICAR cited (1) the existence of
competition from four foreign companies backed by foreign export credit agencies, and
(2) no availability of “economically viable interest rates on terms over one to two years/”




11Inmarsat press release, “Inmarsat Announces $1.2bn Investment in Next Generation Ka-band Satellite
Network,” August 6, 2010. Available at: http://www.inmarsat.com/corporate/media-centre/press-
releases/inmarsat-announces-1.2bn-investment-in-next-generation-ka-band-satellite-network. Accessed
August 12, 2013. The Inmarsat-5 program includes a constellation of telecommunication satellites, including
the Boeing satellites, used to provide worldwide mobile broadband communications.


                                       AUDIT REPORT OIG-AR-13-05
                                                    10

                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                                                 Consequently, Ex-Im Bank financing was necessary
                                                 to make CB&I and its suppliers competitive and
                                                 ensure REFICAR purchased U.S. goods and services
                                                 for the project rather than those of foreign
                                                 competitors. In May 2011, Ex-Im Bank approved
                                                 REFICAR’s $2/34 billion direct loan for the purchase
                                                 of goods and services from CB&I and its suppliers.
                                                 However, we determined that CB&I has had
                                                 engineering, procurement, and construction
                                                 contracts with REFICAR for the refinery project since
                                                 at least 2007. Again, based on the lack of
                                                 information in the loan file, we were unable to verify
                                                 the need of Ex-Im Bank support.

Photo of REFICAR refinery. 
            When questioned, the loan officers for the Inmarsat
Source: Ex-Im Bank 2011 annual report.
 and REFICAR transactions stated that the majority of
                                        the work performed to verify borrower needs for
Ex-Im Bank financing was done through verbal and e-mail communication. In addition, the
loan officers had substantial institutional knowledge related to both projects and stated
that detailed documentation is not required to be maintained.

The application for the remaining loan in our sample – the loan to Barakah One Company –
included a response to questions regarding the need for Ex-Im Bank support. Because the
loan had not been declared operative as of September 2013 and, therefore, the loan files
were not centralized, we were unable to determine whether files contained sufficient
documentation to support borrower assertions (discussed further beginning on page 19).12

New Statutory Requirements for Reporting on Additionality. In accordance with the
Export-Import Bank Reauthorization Act of 2012, beginning in 2012, Ex-Im Bank must
include in its annual report details on the additionality of each loan and long-term
guarantee authorized in the fiscal year.13 Specifically, the Bank must report whether each
loan or guarantee was made to: (1) assume commercial or political risk that exporter or
private financial institutions are unwilling or unable to take; (2) overcome limitations in
private sector export financing; (3) meet competition from foreign, officially sponsored,
export credit competition; or (4) for an unidentified purpose (with an explanation




12 After financing agreements are executed and conditions precedent to initial utilization of a loan have been

satisfied, Ex-Im Bank declares a loan “operative/”
13   Public Law 112-122, 126 Stat. 350 (2012).


                                           AUDIT REPORT OIG-AR-13-05
                                                       11

                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


provided).14 As a result, the 2013 revision to the Loan Manual states, “It is important for
[loan officers] to assist in ensuring that categorization [of additionality] is as nearly
accurate as possible, not only to meet the Bank’s statutory requirements and ensure
accurate reporting, but also to assist the Bank in appropriately addressing changing market
needs, in answering inquiries from Congress, other agencies and stakeholders, and in
ensuring that Bank resources are directed where they can best support the mission of the
Bank.”15 Consequently, Ex-Im Bank modified the long-term application to include
additional questions regarding the purpose of each transaction. In addition, the Bank
developed a detailed guide to assist loan officers in determining and documenting why
Ex-Im Bank support is needed. The guide is included as Appendix 7-C to the 2013 revision
to Ex-Im Bank’s Loan Manual/

These actions represent good faith efforts on the part of Ex-Im Bank to address the
important issue of additionality. However, the Bank must also develop effective
mechanisms to ensure that loan officers and other Bank personnel comply with Federal
and agency policies and procedures for documenting, assessing, and confirming the need
for Ex-Im Bank support. As discussed below, we found that loan officers did not always
complete required checklists or perform other required tasks despite the creation and
existence of multiple policies and requirements over time. Therefore, we question whether
Ex-Im Bank’s latest changes to its policies and procedures related to additionality will be
inherently more effective without the means to monitor for and address noncompliance.


Loan Officers Did Not Always Perform or Document Performance of
Required Tasks
Our review found that Ex-Im Bank loan officers did not always perform or document
performance of required tasks. Specifically, prior to loan approval loan officers did not
complete checklists intended to ensure (1) borrower eligibility and compliance with Ex-Im
Bank credit policies and standards, (2) completeness of loan applications, and
(3) collection and maintenance of all required commitment documents. In addition, they
did not always sufficiently document completion of CRTI due diligence reviews in
accordance with Ex-Im Bank policy. Without adequate supporting documentation, we
were unable to verify whether the Bank’s credit policies and standards, including those for
transaction due diligence, were followed.

14In Ex-Im Bank’s 2012 annual report, the Bank used the following “additionality codes” to categorize loans
and guarantees:
  1 – To overcome limitations in private-sector financing, including (a) to assume commercial or political risk
      that the exporter or private financial institutions are unwilling or unable to undertake and (b) to
      overcome maturity or other limitations in private-sector export financing.
  2 – To meet competition from a foreign officially sponsored export credit agency.
  3 – Not identified due to insufficient information.
Of the 20 loans authorized in FY 2012, Ex-Im Bank reported that 15 were authorized because of additionality
code 1, while the remaining 5 were authorized because of additionality code 2. No loans were reported with
additionality code 3, or insufficient information regarding the need for Ex-Im Bank support.
15   Loan Manual Section 7/1/5/1, “Additionality/Categorization of Additionality,” January 2013/


                                           AUDIT REPORT OIG-AR-13-05
                                                        12

                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Completion of Checklists Prior to Loan Approval. OMB Circular No. A-129 and
Treasury/FMS, “Managing Federal Receivables,” require agencies to make every effort to
effectively target Federal assistance and mitigate risk by (1) following appropriate
application screening standards and procedures, and (2) making sure participants in
Federal credit programs meet all applicable eligibility, financial, and programmatic
requirements. “Managing Federal Receivables” further suggests that agencies use a manual
or automated checklist to ensure that they have fully and properly processed, evaluated,
and documented loan applications and awards for loan assistance. Appendix 2 of the
document provides a suggested “Credit Extension/Servicing Checklist” for just such
purpose.

Ex-Im Bank’s Loan Manual includes many different forms and checklists to assist in
documenting the Bank’s credit activities and ensure consistent application of Bank policies.
Depending on the type of financing requested, various checklists are used to ensure that
applications are complete and comply with Ex-Im Bank credit policies and standards, and
all required commitment documents are obtained prior to loan approval. Chapter 7 of the
Loan Manual describes the steps in processing applications for standard long-term final
commitments. This chapter has been updated numerous times. At the time the loans in
our sample were underwritten, the “Information Checklist Long-Term Loans and
Guarantees” (Information Checklist) and the “Compliance Checklist Long-Term Loan and
Guarantees” (Compliance Checklist) were required. Appendix B includes both checklists.

The Information Checklist required loan officers to review standard long-term loan
applications and determine whether applications were complete, sufficient background
data on the type of risk involved was specified, and applicant financial statements, financial
projections, credit reports, and bank references (as required) were obtained.

The Compliance Checklist required loan officers to work with the Engineering and
Environment Division (E&E) and Ex-Im Bank’s Policy Group to screen applications and
determine if transactions complied with Ex-Im Bank credit policies and standards prior to
loan approval. Loan officers were to complete the checklist to document the effort. Items
on the checklist included assessing:

      whether transaction participants and related costs were eligible;

      whether requested financing terms conformed with Ex-Im Bank requirements;

      the transaction’s degree of additionality; and

      the economic and environmental impact of the transaction.

In addition, Application Processing creates an application file for each loan and sends the
file to the appropriate Ex-Im Bank division, such as SPFD. In the file, Application
Processing includes document checklists which loan officers are to complete to ensure
required supporting documents such as the export contract, financial statements, and
technical project information are maintained. Each loan in our sample included various
versions of a document checklist.

                                   AUDIT REPORT OIG-AR-13-05
                                               13

                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Two of the loans included in our sample – loans to Mahmood Saeed Collective Company
and Barakah One Company – were standard long-term transactions; however, the
Information Checklist and Compliance Checklists were not completed. Also, none of the
document checklists provided by Application Processing were fully completed for any
sampled loans. When questioned, more than one loan officer cited significant experience
with Ex-Im Bank processes and, therefore, reasoned that it was not necessary to use
checklists or refer to the Loan Manual. Instead, loan officers generally relied on their
institutional knowledge of Ex-Im Bank operations when underwriting loans. Although loan
officers stated they performed the work that should have been documented on the
checklists in question, without the completed checklists or other supporting
documentation, we were unable to verify whether the credit policies and standards the
checklists were intended to address were, in fact, followed.

Documentation of CRTI Due Diligence Reviews. As of March 2009, loan officers are
required to submit the corporate and individual names and addresses of borrowers,
guarantors, and other transaction participants to
the Ex-Im Bank Library. Library staff then          According to the Ex-Im Bank Loan Manual, "risk
conduct a CRTI due diligence review, which          assessment and due diligence" is the
entails checking participant information against    evaluation of the conformity of a transaction
news items, legal notices, and approximately        with Ex-Im Bank credit policies related to risk.
20 databases, including various Federal and         The scope of the review varies depending
international debarment, sanction, and watch        mainly on the type of financing requested, the
lists. The purpose of this review is to identify    amount and term of the transaction, and the
any risks related to the trustworthiness or         presence of policy issues. When concluded,
character of transaction participants prior to      the risk assessment and due diligence will have
                                                    identified any special issues and risks
approval of the transaction.
                                                             associated with the transaction.

Ex-Im Bank’s Loan Manual, Section 7.1.2.2,
“CRTI,” states that CRTI reviews for long-term transactions, such as direct loans, should
include all identified exporters and suppliers, the foreign buyer, borrower, end-user,
guarantors, local cost providers (if applicable), and principal owners of each entity. Also,
Chapter 8 of the Loan Manual, which describes the standard credit structure of Ex-Im Bank
direct loans, states that, “The [loan officer\ is responsible for screening all participants to
the transaction for suitability and Know Your Customer guidelines/” Finally, “Ex-Im Bank
Staff CRTI Transaction Due Diligence Guidelines (2011),” states that for SPFD transactions
the foreign buyer, borrower, project sponsors, end-users, guarantors, and principal owners
of each entity will be vetted through the CRTI process. The CRTI Transaction Due Diligence
Guidelines further state that documentation of completed CRTI reviews should include the
original request for CRTI screening, including the identities of all participants screened, and
the results of the Library’s research.

We reviewed evidence of CRTI screening for the loans included in our sample and
determined that loan officers for three transactions – loans to Mahmood Saeed Collective
Company, Punj Lloyd Solar Power Ltd., and Barakah One Company – fully documented CRTI
screening as required. Specifically, the loan officers documented the original request to the



                                      AUDIT REPORT OIG-AR-13-05
                                                  14

                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Library, including the names of all transaction participants to be screened, and the
Library’s response that CRTI screening was complete and no concerns were identified.

Files for two loans in our sample – loans to Inmarsat and REFICAR– included only the
response from the Library that CRTI screening was complete and no concerns were
identified, with no indication or record of which transaction participants were included in
the screening. The file for the remaining loan in our sample – the loan to Papua New
Guinea LNG Global Company Ldc – included no documentation regarding CRTI although the
loan was approved in December 2009 after CRTI requirements were established.

Without documentation of the participants screened by the Library, we were unable to
determine whether all participants were included in CRTI reviews as required and, if not,
why some participants may have been excluded. In addition, if some participants were
excluded, we were unable to assess the potential impact of their exclusion on Ex-Im Bank’s
objective of identifying risks and performing rigorous due diligence prior to loan approval.


Ex-Im Bank Has Not Adopted Federal Credit Program Policies and Lacks
Mechanisms Necessary to Ensure Compliance
We found that Ex-Im Bank’s Loan Manual and other credit program policies were largely
consistent with many fundamentals of OMB and Treasury/FMS policies for Federal credit
programs. The effort expended to revise the Loan Manual in January 2013 and
communicate Ex-Im Bank credit policy to employees is commendable. However, although
OMB Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables,” require
agencies to incorporate the requirements and standards established in both documents in
agency regulations, policies, and procedures, Ex-Im Bank has not formally adopted either
document/ As a result, the Bank’s policies and procedures, including those for direct loans,
do not expressly address OMB and Treasury requirements and guidance and, therefore,
may not keep pace with changes in requirements and expectations for managing Federal
credit programs. In fact, new and important requirements for performing in-depth biennial
program reviews, developing robust management and oversight structures, establishing
data-driven reporting mechanisms, and creating effective credit program communications
policies established in the latest revision to OMB Circular No. A-129 were not addressed in
the latest revision to the Bank’s Loan Manual/

On February 13, 2013, the Credit Policy Division released the revised Loan Manual. In the
e-mail that announced the revision, the Credit Policy Division stated that an effective credit
manual for all Ex-Im Bank business units to use is key toward the goal of improving the
Bank’s credit environment. The preface to the Loan Manual further states that the Manual
is intended to communicate requirements to Ex-Im Bank employees and encourage
documentation and consistent application of credit policies and procedures. Nonetheless,
Ex-Im Bank has not established mechanisms necessary to ensure compliance with those
requirements, policies, and procedures. Moreover, the preface to the Manual undermines
its own stated purpose by cautioning users with the following “Important Notice”:




                                   AUDIT REPORT OIG-AR-13-05
                                               15

                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


           Please note that these policies and procedures are subject to change from time
           to time without notice; consequently sections of this Manual may not be fully up
           to date or accurate.

This warning may unintentionally discourage employees from relying on or using the Loan
Manual and instead increase overreliance on institutional knowledge.

OMB Circular No. A-129 has consistently required agencies to implement management
practices that ensure the goals of credit programs are met.16 Additionally, with the January
2013 revision to the Circular, OMB placed heavy emphasis on strengthening agency
internal controls and establishing robust management and oversight structures to achieve
credit program policy goals. Appendix C of the Circular provides detailed objectives and
features of expected oversight structures and risk management functions to identify issues
in a timely manner and allow for proactive management and informed decision-making.
One possible risk management function discussed is a quality control or loan review
function that monitors for underwriting errors or other deviations from acceptable
practice. Another is the establishment of an agency-wide credit council to oversee
administration of and compliance with credit policies and procedures. Ex-Im Bank does
not have either type of mechanism, which would help detect internal control weaknesses
and instances of noncompliance with Federal and agency policy, such as those we
observed.

During the audit, we inquired about requirements in the Loan Manual for the Credit Policy
Division to conduct “post-authorization audits” and for the Credit Review and Compliance
Division to perform program compliance reviews of Ex-Im Bank transactions. We
determined that such audits and reviews do not apply to long-term, SPFD direct loans and
do not assess quality control aspects, such as deviations from regulations, policies, or
procedures. Specifically, the Credit Policy Division’s post-authorization audits are
completed on transactions under $3.5 million, primarily for the Trade Finance Division and
do not assess internal compliance with policies. Further, the Credit Review and
Compliance Division’s compliance reviews are limited to external and internal delegated
authority transactions under $10 million, which are primarily medium-term loan
guarantees.

Ex-Im Bank is establishing an Enterprise Risk Committee to address, among other issues,
operational risk. In addition, the OCFO is developing an implementation plan to address
new OMB requirements. However, additional management attention is warranted to
ensure that Ex-Im Bank (1) formally adopts OMB Circular No. A-129 and Treasury/FMS,
“Managing Federal Receivables,” (2) specifically addresses provisions of both documents in
agency policies and procedures, and (3) develops mechanisms to ensure that loan officers
and other Bank personnel comply with Federal and agency credit program policies.




16   OMB Circular No. A-129, Section I(4)(b)(2), November 2000, and Section I(D)(1), January 2013.


                                          AUDIT REPORT OIG-AR-13-05
                                                       16

                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Recommendations, Management’s Response, and Evaluation of
Management’s Response
  To strengthen management of its direct loans, Ex-Im Bank should:

     1.	 Update the Ex-Im Bank Loan, Guarantee and Insurance Manual to require loan
         officers to maintain detailed documentation regarding the need for Ex-Im Bank
         support.

            Management’s Response. Management concurs with the recommendation.
            The Credit Policy Division will work with the Policy and Planning Group and
            business units to document corroboration of additionality. Some mechanisms
            will require loan officers to maintain detailed documentation regarding the need
            for Ex-Im Bank support. This requirement will be updated in the Ex-Im Bank
            Loan, Guarantee and Insurance Manual by the end of the calendar year. Also,
            Credit Policy is developing a post-authorization review process for long-term
            transactions to assess adherence to credit policies and procedures, which would
            include additionality.

            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the proposed actions.

     2.	 Formally adopt applicable Federal credit program policies and guidance, including
         OMB Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables,” by
         revising existing agency credit program policies and procedures as necessary to
         specifically address provisions of those documents.

            Management’s Response. Management concurs with the recommendation.
            Ex-Im Bank has submitted to OMB a draft Circular No. A-129 Implementation
            Plan and is awaiting comments and approval/ Once approved, the Bank’s Loan,
            Guarantee and Insurance Manual will be revised to reference requirements of
            OMB Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables/”

            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the proposed actions.

     3.	 Develop a systematic quality control review program or other mechanism(s)
         necessary to prevent, detect, and correct Ex-Im Bank staff noncompliance with
         Federal and agency credit program policy.

            Management’s Response. Management concurs with the recommendation.
            The Credit Management Group has entered into an operating agreement with
            the Export-Finance Group and Small Business Group. This agreement will
            expand the scope of the Credit Policy Division and the Credit Review and
            Compliance Division through post-authorization reviews of long-term

                                    AUDIT REPORT OIG-AR-13-05
                                                17

                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


          transactions underwritten in Structured and Project Finance and the
          Transportation Division in order to assess compliance with Federal and Ex-Im
          Bank credit program policy. Credit Policy is presently working on developing
          standardized procedures for implementing the post-authorization reviews
          which it anticipates being fully operational by calendar year-end.

          Evaluation of Management’s Response. Management’s proposed actions are
          responsive; therefore, the recommendation is resolved and will be closed upon
          completion and verification of the proposed actions.

Management’s complete response is reprinted in Appendix E/




                                  AUDIT REPORT OIG-AR-13-05
                                              18

                                  EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank Faces Challenges That May Impact Efficient and
Effective Management of the Direct Loan Portfolio
  Ex-Im Bank faces several challenges that, although not unique to direct loans, may impact
  the Bank’s efficient management of the direct loan portfolio/ These challenges include.

            fragmented recordkeeping practices;

            complex business processes; and

            growing demand for Ex-Im Bank support.

  Separately managing each challenge is difficult enough, but because they are inherently
  related they present additional complications and require management’s attention.


  Fragmented Recordkeeping Practices
  The Federal Records Act of 1950, as amended, requires each Federal agency, including
  Ex-Im Bank, to make and preserve records containing adequate and proper documentation
  of the organization, function, policies, decisions, procedures, and essential transactions of
  the agency.17,18 The National Archives and Records Administration (NARA) has broad
  authority under Title 36 of the Code of Federal Regulations to set standards for the
  management of records. Additionally, on November 28, 2011, a presidential memorandum
  was issued emphasizing the importance of having well-managed records to improve
  performance, minimize costs, and promote openness and accountability in Government
  operations.

  Federal credit program policies also require effective records management. Both OMB
  Circular No. A-129 and Treasury/FMS, “Managing Federal Receivables,” state that, “Loan
  origination files should contain loan applications, credit bureau reports, credit analyses,
  loan contracts, and other documents necessary to conform to private sector standards for
  that type of loan. Accurate and complete documentation is critical to providing proper
  servicing of the debt, pursuing collection of delinquent debt, and in the case of guaranteed
  loans, processing claim payments.”19 Treasury/FMS, Chapter 3, “Credit Extension,” further
  identifies specific documents that should be included in loan files including but not limited
  to: the original signed loan application, the original copy of the accepted loan commitment,

  17   Codified at 44 U.S.C., Chapters 21, 29, 31, and 33.
  18 44 U/S/C 3301 defines “records” as all books, papers, maps, photographs, machine readable materials, or

  other documentary materials, regardless of physical form or characteristics, made or received by an agency of
  the United States Government under Federal law or in connection with the transaction of public business and
  preserved or appropriate for preservation by that agency or its legitimate successor as evidence of the
  organization, functions, policies, decisions, procedures, operations, or other activities of the Government or
  because of the informational value of data in them.
  19OMB Circular No. A-129, Section III(A)(2), November 2000 and January 2013; and Treasury/FMS,
  “Managing Federal Receivables,” Chapter 3, May 2005/


                                               AUDIT REPORT OIG-AR-13-05
                                                             19

                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


credit reports, and all original internal review documents required for financial and legal
findings. Treasury/FMS notes that, while much of this information may be contained in an
automated system, agencies may still need to maintain all original documentation to
support possible future legal action.

On April 15, 2012, Ex-Im Bank issued its first records management policy (“Records
Management Program Policy,” [RM-2012-12]). The policy assigns responsibility for
managing and coordinating Bank-wide records to the Ex-Im Bank Information Quality and
Records Management Officer (Records Management Officer), under the direction of the
Chief Information Officer. Furthermore, the document states that it is the policy of Ex-Im
Bank to manage records effectively and efficiently in accordance with statutory and
regulatory requirements and to ensure access to information. Nonetheless, throughout our
review of Ex-Im Bank’s management of direct loans, we found that:

       hard and soft copy records were maintained by various individuals and divisions;

       files could not be easily located which hindered our ability to assess the Bank’s
        operations;

    	 the degree of loan documentation available varied and was often insufficient; and

    	 there did not seem to be agreement on when and what files were to be transferred
       to the Information and Records Management Division of the Office of the Chief
       Information Officer (Records Management).

For example, Ex-Im Bank’s records management policy does not address how, where, and
by whom transaction files are to be maintained, and the Bank’s credit program policy,
record control schedules filed with NARA, and intranet provide conflicting guidance on the
subject. Specifically, the 2013 revision to the Loan Manual, Section 1.4, states that Records
Management is responsible for maintaining Ex-Im Bank’s official records. But the same
section of the Manual also states that loan officers in the Trade Finance and Transportation
divisions “co-manage” with Office of General Counsel (OGC) lawyers the documentation of
authorized financing. In addition, Section 4.3 of the Loan Manual states that loan officers
maintain Ex-Im Bank's official hard copy records of loan applications and related
documents and are responsible for keeping the files current and orderly.

                                                    In contrast, Ex-Im Bank’s September 27, 2002,
   “When records are well managed, agencies can     records control schedule for transaction files
   use them to assess the impact of programs, to    (NARA Number N1-275-02-1) states that
   reduce redundant efforts, to save money, and
                                                    originals of signed, legally binding direct loan,
   to share knowledge within and across their
                                                    credit guarantee, and export insurance
   organizations. In these ways, proper records
   management is the backbone of open
                                                    transaction files (including applications and all
   Government.”                                     supporting documentation) are to be maintained
                      --Presidential Memorandum,    by the OCFO; only draft transaction agreements
                 “Managing Government Records,”     are to be maintained by OGC; and all other
                               November 28, 2011    transaction files are to be transferred to Central
                                                    Files (now Records Management) after the

                                           AUDIT REPORT OIG-AR-13-05
                                                      20

                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


transaction becomes operative. Finally, the Ex-Im Bank intranet states that Records
Management is the central location for all permanent and temporary records of Ex-Im
Bank’s business and operations, and further defines a record as original documents, Bank
policies, data from certain Bank systems, e-mail, and other soft copy documents.

In practice, Ex-Im Bank divisions do not submit to Records Management loan documents,
including original documents maintained in a transaction’s official application file, until
financing agreements are executed and conditions precedent to initial utilization of the
loan have been satisfied, at which time the loan is declared “operative.” Application files
are critical as they contain much of the background information needed to approve the loan
and perform the due diligence necessary for underwriting, including the original loan
application, amendments, credit information, project summary, company information, and
Department of State and CRTI clearances. However, depending on the complexities of the
transaction, more than a year may pass between loan application and the operative
declaration. One of the loans in our sample – the loan to Barakah One Company – was
applied for on November 2, 2011, approved on September 6, 2012, but still not operative as
of September 2013. As a result, none of the official files for the loan had been transferred
to Records Management and were spread across many different Ex-Im Bank divisions,
were not easily obtained, and may be at risk for loss.

We requested application files and all other documents maintained in Records
Management and, as necessary, by other Ex-Im Bank divisions for the remaining five loans
in our sample, which were all operative at the beginning of the audit. Only one of the five
application files was properly maintained in Records Management. For the four loans
without application files in Records Management, Records Management possessed only
supporting documents of little intrinsic value. Locating the application files not maintained
in Records Management required a significant effort and involved finger-pointing between
various Ex-Im Bank divisions and individuals. Hard copy materials were found to have
been stored in various desks and file cabinets, while soft copy materials were located on
personal hard drives, shared drives, or Ex-Im Bank systems. Our experience corroborated
statements made by the former Records Management Officer, who retired in April 2013
and whose position was still vacant as of September 2013. Before retiring, she told us that
she often had difficulty obtaining official records. In her experience, this was particularly
true for large, complex transactions because Ex-Im Bank employees perceived the records
as their personal files and were reluctant to turn them over.

A summary of our review of sampled application files and supporting documentation is
provided in Figure 3.




                                   AUDIT REPORT OIG-AR-13-05
                                               21

                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


         Figure 3. Summary of Records Reviewed for Sampled Loans
Borrower                 Highlights of Available Records
Barakah One              Loan was approved on September 6, 2012, but had not been declared operative as of
Company                  September 2013. Only a memo regarding compliance with Iran Sanctions requirements
                         from OGC was available in Records Management. The application file was found in the
                         Asset Management Division (AMD).

Punj Lloyd Solar         Loan was approved on July 7, 2011, and declared operative on April 13, 2012; however,
Power Ltd                application file was found with the loan officer. Records Management had only two folders
                         that contained copies of the same operative memo.

Inmarsat Investment      Loan was approved on December 16, 2010, and declared operative on May 13, 2011;
Ltd.                     however, the application file was found in AMD. The file contained the original
                         application and many of the original supporting documents

Refineria de              Loan was approved on May 18, 2011, and declared operative on February 21, 2012;
Cartagena S.A.            however, the application file was found in the files of the former loan officer who had
                          since transferred to AMD. Records Management had two boxes containing the credit
                          agreement and disbursement documents.

Mahmood Saeed             Loan was approved on February 24, 2010, and declared operative on July 19, 2010.
Collective Company        Records Management had a mostly complete set of records, including the application file
                          and due diligence documentation. However, as previously discussed, the file did not
                          include information necessary to support borrower statements regarding additionality.

Papua New Guinea          Loan was approved on December 3, 2009, and declared operative on March 15, 2010;
LNG Global Company        however, the application file was found in AMD and contained only documentation of
Ldc                       limited value. Other supporting documentation was found in AMD and SPFD. Records
                          Management had only 10 different drafts of the same term sheet for common terms.

Source: Office of Inspector General (OIG) summary of information obtained from sampled loan files.

The former Records Management Officer made progress in improving Ex-Im Bank’s records
management program, to include contracting with a NARA-approved vendor for
maintenance of Ex-Im Bank’s physical records and hosting the first Small Agency Records
Officer Council meeting on March 19, 2013. Additionally, she offered Bank-wide records
management training on more than one occasion, but stated that it was poorly attended.
Despite the progress made, Ex-Im Bank does not have an electronic document management
system and, according to NARA, Ex-Im Bank’s latest records management self-assessment
indicated that the Bank’s record management practices need additional improvement. Out
of a possible 100 points, Ex-Im Bank’s total self-assessment score was 27, placing it in
NARA’s High Risk category.20 In addition, the March 2013 report from a study of leading

20Since 2009, NARA has required agencies to complete an annual self-assessment of their records
management practices. NARA uses the results to rate agencies’ compliance with the Federal Records Act and
other laws and regulations related to records management. The latest self-assessment was conducted in
2012. According to the NARA 2012 Records Management Self-Assessment Report, agencies were scored out
of a possible 100 points and each agency’s overall score determined its risk in one of the three following
categories: (1) Low Risk, for scores between 90–100; (2) Moderate Risk, for scores between 60–89; and
(3) High Risk, for scores between 0–59. Ex-Im Bank’s score was 27/


                                            AUDIT REPORT OIG-AR-13-05
                                                          22

                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


loan monitoring processes requested by Ex-Im Bank’s Audit Committee and conducted by
KPMG LLP found that Bank divisions responsible for loan portfolio monitoring “do not have
accurate information and readily available access to data required for project
monitoring/”21


Complex Business Processes
Complex and convoluted business processes pose a risk to Ex-Im Bank’s efficient and
effective management of direct loans. From application intake to asset monitoring,
multiple Ex-Im Bank divisions as well as external advisors are involved in underwriting,
servicing, and monitoring each loan. The first steps in the process include receiving an
application and processing it for approval by Ex-Im Bank’s Board of Directors. As shown in
Appendix C, we noted that Ex-Im Bank’s processes from the time of loan application until
Board approval for a typical SPFD loan requires 8 different Bank components performing
21 different steps and many exchanges of information. For a highly complex project
finance transaction, there may be as many as 10 Ex-Im Bank divisions and outside entities
in the application process alone, including application processing personnel, the loan
officer, internal and external attorneys, internal and external engineers, economists,
financial advisors, and other advisors as necessary. Appendix D describes each participant
to this process.

Ex-Im Bank management contracted with CC Pace Systems to perform a process
improvement study and identify opportunities for streamlining SPFD operations. In their
May 15, 2013, final report entitled, “Structured & Project Finance Process Leaning Initiative
Findings and Recommendations,” CC Pace Systems also noted that loan servicing functions
are segmented across multiple Ex-Im Bank divisions and “use different processing systems
with very limited integration . . . often creating disconnects for what should be a more
seamless process/”

OMB Circular No. A-129 requires agencies to design and administer credit programs in a
manner that most effectively and efficiently achieves policy goals while minimizing
taxpayer risk. The increase in Ex-Im Bank’s number of large, complex direct loans
magnifies the organization’s need to work efficiently and effectively as additional time and
coordinated efforts are needed to underwrite each deal. Loan officers in the Trade Finance
Division, Transportation Division, and SPFD do not have organizational authority over
other key components of Ex-Im Bank, yet the Loan Manual describes them as “team leaders
in underwriting and processing financing requests” and coordinating the participation of
external project finance consultants.22 At least one loan officer expressed to us frustration
over delays caused while waiting for other divisions of the Bank to complete their assigned
responsibilities.



21 KPMG LLP, “Export-Import Bank of the United States (Ex-Im Bank) Consultative Review of Industry

Practices for Loan Portfolio Monitoring,” March 17, 2013/
22   Loan Manual Section 1/4, “Primary Participants in the Credit Process,” January 2013/


                                           AUDIT REPORT OIG-AR-13-05
                                                        23

                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Growing Demand for Ex-Im Bank Support
As previously discussed, in the wake of the international financial crisis, Ex-Im Bank’s
authorizations, including direct loan authorizations, grew substantially. Additionally, in
May 2012, Congress enacted the Export-Import Bank Reauthorization Act of 2012 which
increased the agency’s exposure limit – that is, the total outstanding value of all direct
loans, loan guarantees, and insurance policies that Ex-Im Bank cannot exceed – from
$100 billion in 2011 to $140 billion in 2014.23 Despite the large increase in authorizations,
particularly in complex SPFD transactions, and the increase to Ex-Im Bank’s exposure limit,
growth in the Bank’s workforce has remained relatively flat.

The OIG has consistently reported human capital as a major management challenge in
every semiannual report to Congress since the report for the period ended September 30,
2011.24 Three outside sources have recently confirmed that many Ex-Im Bank divisions
are understaffed and employees overworked. Two of the outside sources were consultants
hired by Ex-Im Bank management to address this issue and find solutions, and the third
was the Government Accountability Office (GAO).

Although workforce assessment was not the focus of our review, employees reported to us
the impact of the growing demand for Ex-Im Bank support on their continued ability to
provide quality service. Therefore, how the Bank manages this challenge, particularly
given the other, inherently related management challenges we observed, may impact the
Bank’s efficient and effective management of direct loans. Specifically, underwriting,
servicing, and monitoring increasing numbers of highly complex loans with a strained
workforce, highly complex business processes, and in an environment of fragmented
recordkeeping poses a significant challenge to Ex-Im Bank management.

Between 2010 and 2012, Ex-Im Bank’s workforce grew 8 percent from 380 to 412 full-time
equivalents.25 As shown in Figure 4, key divisions that participate in managing direct loans,
such as SPFD, OGC, AMD, E&E, and Operations & Data Quality (ODQ) grew at an average
rate of 10.4 percent during the same period.




23   Public Law 112-122, 126 Stat. 350 (2012).
24 Ex-Im OIG semiannual reports to Congress are available at: 


http://www.exim.gov/oig/reports/semiannual-reports-and-testimony.cfm.

25   According to Ex-Im Bank’s Chief Human Capital Officer, the Bank had six vacancies at the end of FY 2012/
	


                                           AUDIT REPORT OIG-AR-13-05
                                                        24

                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                       Figure 4. Growth in Ex-Im ank Divisions 

                         Managing Direct Loans (2010 – 2012)
	
                                     Number of Full-Time Equivalents
                                                by Year                              Growth
               Division             2010             2011                 2012        Rate
               SPFD                  12               11                   13         8.3%

               OGC                   33               32                   36         9.1%

               AMD                   14               14                   16         14.3%
               E&E                   13               14                   15         15.4%

               ODQ                   21               23                   22         4.8%

                  Total              93               94                  102         9.7%

                  Average percent increase                                            10.4%

              Source: OIG summary of information obtained from Ex-Im Bank Human Resources.


The small growth in key areas responsible for managing direct loans in contrast to the large
increase in direct loan authorizations – particularly larger, more complex, more time-
consuming deals – could increase operational risks. For example, the Credit
Administration Group in ODQ reviews all borrower requests to draw down from an
approved loan (or receive a loan disbursement) as reimbursement for purchases that are in
compliance with the loan agreement. Before making a disbursement, ODQ must review
invoices and supporting documentation submitted by borrowers for accuracy and
eligibility. Between FY 2010 and FY 2012, Credit Administration’s workforce remained
unchanged and included six employees, some of whom reviewed requests for
disbursements on a part-time basis. Only three of the six employees were dedicated to
long-term transactions. Yet, as shown in Figure 5, the number of borrower requests for
disbursements during the period increased by 154 percent and the number of invoices
associated with those requests increased by 222 percent.

   Figure 5. Growth in redit !dministration Workload (2010 – 2012)
                                            FY 2010              FY 2012                 Increase
 Total Number of Requests for
 Disbursements                                563                   866           303 requests, or 154%
 Total Number of Invoices                    6,230                 13,801        7,571 invoices, or 222%
 Total Amount of Disbursements
 Requested                                $12.5 billion        $21.2 billion       $8.7 billion, or 169%
Source: OIG summary of information obtained from Ex-Im Bank ODQ.




                                          AUDIT REPORT OIG-AR-13-05
                                                          25
                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Relying on the same number of employees to review more than twice the number of
invoices and a large increase in requests for disbursements, particularly given the large
dollar amounts involved, may increase the risks of inaccurate or ineligible loan
disbursements. One Credit Administration Officer acknowledged that, with only three
people reviewing disbursements for long-term transactions, staff find it extremely difficult
to keep up as the transactions are complex and involve large amounts of local costs and
many suppliers.26

At least three other assessments of Ex-Im Bank’s workforce were completed between
March and May of 2013 and resulted in the following reports:

       1.	 G!O, “Recent Growth Underscores Need for Continued Improvements in Risk
           Management” (G!O-13-303), March 2013 – A mandated review resulting from
           the Export-Import Bank Reauthorization Act of 2012.

       2.	 KPMG LLP, “Export-Import Bank of the United States (Ex-Im Bank)
           Consultative Review of Industry Practices for Loan Portfolio Monitoring,”
           March 17, 2013 – An analysis of industry best practices for loan portfolio
           management contracted for by Ex-Im Bank’s Audit Committee in cooperation with
           the Bank’s OCFO/

       3.	 CC Pace Systems, “Structured & Project Finance Process Leaning Initiative
           Findings and Recommendations,” May 15, 2013 – A process improvement study
           contracted for by Ex-Im Bank management to identify opportunities for
           streamlining SPFD operations that would provide a means to increase transaction
           volume with current staffing levels while reducing the overall level of effort
           required.

Each report highlights the risks Ex-Im Bank faces and provides findings and
recommendations related to Ex-Im Bank’s workforce/ Highlights from the reports are
provided below:

From GAO’s report:

           Ex-Im faces potential operational risks because the growth in its business volume has
           strained the capacity of its workforce. Ex-Im has determined that it needs more staff, but it
           has not formally determined the level of business it can properly manage. GAO internal
           control standards state that agencies should develop a risk-management approach based on
           how much risk can be prudently accepted. Without benchmarks to determine when
           workload levels have created too much risk, Ex-Im’s ability to manage its increased business
           volume may be limited.

From KPMG’s report.

           AMD and [Transportation Portfolio Management Division] are understaffed in comparison to
           the peer group/ The average workload (number of relationships) per asset manager at Ex‐Im


26   Local costs are those project-related costs for goods and services incurred in the buyer’s country/


                                            AUDIT REPORT OIG-AR-13-05
                                                         26

                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


       Bank is significantly greater than that observed in its peer group. For example, the average
       workload for an asset manager in Portfolio Monitoring & Control Group (PMCG) is
       100 borrowers compared to 20 to 30 borrowers for the peer group; for Project & Corporate
       Portfolio Management Group (PCPM), the average workload is 13 borrowers compared to
       7 to 10 borrowers for the peer group. The PCPM level is projected by PCPM management to
       increase to 17 to 18 borrowers per asset manager once the existing pipeline of new
       transactions is transferred into PCPM for monitoring. The [Transportation Portfolio
       Management Division] workload is approximately 25 borrowers per portfolio manager
       compared to 7 to 10 borrowers for the peer group, and the workload is expected to increase
       given projected increases in the transportation portfolio. With insufficient staffing there is
       greater risk of staff 1) being overwhelmed by case loads, 2) being less able to actively
       monitoring credits, 3) missing problems, 4) having less time to develop relationships with
       debtors/ lenders (relationships that facilitate active monitoring), and 5) staff burnout.

From CC Pace Systems’ report:

       Staffing levels within [SPFD] are much lower than export financing industry norms and has
       increasingly relied on external advisors as critical deal participants . . . . The staffing
       constraints at Ex-Im Bank are viewed by these external parties as contributing to the
       elongation of deal cycle times and often contribute to the complexity of deal negotiations due
       to inaccessibility.


Conclusion
The complexity of Ex-Im Bank’s processes and organizational roles and responsibilities for
managing direct loans from the time of application intake through servicing and
monitoring increases Ex-Im Bank’s challenges/ In addition, managing the Bank’s increasing
business volume with little increase in its workforce has been repeatedly recognized as a
major management challenge. GAO and Ex-Im Bank consultants have made multiple
recommendations for corrective action regarding the Bank’s workforce and opportunities
to streamline SPFD processes. We are not making any formal recommendations regarding
these issues but will monitor Ex-Im Bank’s implementation of planned corrective actions/

We believe opportunities exist to improve Ex-Im Bank’s records management practices/
Considering the rapid growth in Ex-Im Bank’s direct loan authorizations and the increased
complexity and size of those loans, which impacts each transaction’s documentation needs,
effective records management is essential to Ex-Im Bank’s future success/ As observed
during the audit, loan documentation did not provide an adequate audit trail or evidence to
support Ex-Im Bank’s decision-making for each loan reviewed. Unorganized and scattered
records can also decrease efficiency and create an undue burden on already strained
personnel.




                                       AUDIT REPORT OIG-AR-13-05
                                                    27

                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Recommendations, Management’s Response, and Evaluation of
Management’s Response
     4.	 To improve records management practices, Ex-Im Bank’s Chief Information Officer
         and Enterprise Risk Committee should jointly evaluate Ex-Im Bank’s recordkeeping
         practices to:

            a.	 identify operational risks and impacts on Ex-Im Bank’s ability to achieve
                credit program goals and objectives; and

            b.	 develop and implement a plan to timely address deficiencies found and
                ensure compliance with applicable Federal laws, regulations, and guidance
                while balancing the needs of Ex-Im Bank’s business units/

            Management’s Response. Management concurs with the recommendation.
            During FY 2014, Ex-Im Bank’s Chief Information Officer will participate in the
            Enterprise Risk Committee to evaluate the Bank’s recordkeeping practices and
            implement improvements in this area to address any deficiencies and
            operational risks. The Bank has made recent progress in this area and has
            submitted a Media-Neutral Records Schedule to the National Archives and
            Records Administration and expects it to be approved and implemented in FY
            2014. Additionally, Ex-Im Bank is developing a Smart Form Initiative as part of
            the Bank’s Total Enterprise Modernization effort, allowing for electronic
            submission intake for the Bank’s long-term and working capital programs. This
            system will include an e-document management system for submitting
            attachments and supporting information.

            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the proposed actions.

  Management’s complete response is reprinted in Appendix E.




                                    AUDIT REPORT OIG-AR-13-05
                                                28

                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                         APPENDIX A


Scope and Methodology
  We performed this audit from November 2012 through September 2013 in accordance
  with generally accepted government auditing standards. Those standards require that we
  plan and perform the audit to obtain sufficient, appropriate evidence to provide a
  reasonable basis for our findings and conclusions based on our audit objectives. We
  believe that the evidence obtained provides a reasonable basis for our findings and
  conclusions based on our audit objectives.

  Our objectives were to determine whether Ex-Im Bank effectively managed direct loan
  transactions and complied with Federal and agency credit program policies and
  procedures. To address our objectives, we reviewed applicable laws, regulations, and
  Ex-Im Bank policies and procedures. We also judgmentally selected and reviewed a sample
  of 6 of the 40 direct loans (or 15 percent) authorized and underwritten by SPFD between
  FY 2010 and FY 2012.27 SPFD had approximately 10 loan officers during the period.
  Sampled loans were underwritten by 5 of the 10 loan officers and totaled $7.3 billion, or
  34 percent of the total $21.3 billion in direct loans authorized by SPFD and 33 percent of
  the total $22.4 billion in loans authorized by Ex-Im Bank during the period.

  We chose loans authorized since FY 2010 due to the significant growth in direct loans over
  the previous three fiscal years. Additionally, we chose loans managed by SPFD given the
  characteristics of Ex-Im Bank’s direct loan portfolio/ Specifically, SPFD manages 74 percent
  (40 loans) of the 54 loans authorized during the period under review, while the
  Transportation and Trade Finance divisions manage only 13 percent (or 7 loans) each. In
  addition, SPFD-managed loans represented 95 percent of the value of Ex-Im Bank’s entire
  loan portfolio during the period under review. In selecting loans for our sample, we chose
  loans of various amounts (ranging from $9.2 million to $2.2 billion), industries, and
  countries; loans of different financing types (project finance, structured finance, and
  standard long-term); and loans managed by different loan officers.

  To assess Ex-Im Bank’s overall management of selected loans, we interviewed loan officers
  and Ex-Im Bank staff from AMD, Credit Policy, Credit Review and Compliance, E&E, ODQ,
  OGC, and Records Management, and reviewed supporting loan documentation maintained
  in Records Management and by various Bank divisions. We also performed the following
  tasks:




  27Ex-Im Bank converted one of the transactions in our sample – Punj Lloyd Solar Power Ltd – to a loan
  guarantee. Because the transaction was initially underwritten and authorized as a direct loan, we did not
  replace it in our sample.


                                          AUDIT REPORT OIG-AR-13-05
                                                       29

                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


     	 Identified requirements established in the current and previous versions of OMB
        Circular No. A-129, and compared those requirements with Ex-Im Bank policies and
        procedures to identify any differences;

     	 Developed a review checklist based on OMB guidance and Ex-Im Bank’s policies and
        procedures, and tested selected sample items to determine whether Federal and
        agency requirements were met;

     	 Reviewed prior OIG and GAO reports and the results of internal studies
        commissioned by Ex-Im Bank on subjects related to direct lending to identify
        previously reported opportunities for improvement; and

     	 Reviewed Ex-Im Bank’s annual reports issued between FYs 2007 and 2012 to
        identify trends in Ex-Im Bank’s direct lending.


Review of Internal Controls
  We evaluated the internal controls associated with Ex-Im Bank’s direct loans to determine
  whether the Bank, particularly SPFD loan officers, complied with Federal and agency credit
  program policies. As discussed in this report, we found that Ex-Im Bank had not formally
  adopted key OMB and Treasury policy documents or established control mechanisms to
  ensure compliance with Federal or agency requirements. In addition, to the extent that
  observed Bank-wide management challenges did or reasonably will impact Ex-Im Bank’s
  management of direct loans, we assessed controls associated with records management,
  Ex-Im Bank’s overall business processes, and the growing demand for Bank support. Our
  recommendations, if implemented, should correct the weaknesses we identified.


Federal Laws, Regulations, Policies, and Guidance
  We reviewed the following during the course of our audit work:

     	 USC Title 12 “Banks and Banking,” Chapter 6, “Export and Import Bank of the United
        States,” § 635 “Powers and Functions of Bank” (2013).

     	 Title V of the Congressional Budget Act of 1990 § 500 “Federal Credit Reform Act of
        1990” (1990).

     	 44 U.S.C. Chapter 31“Records Management by Federal Agencies” § 3101 “Records
        management by agency heads; general duties.”

     	 OMB Circular A-123, “Management's Responsibility for Internal Control,” Revised,
        December 21, 2004.

     	 OMB Circular A-129, “Policies for Federal Credit Programs and Non-Tax
        Receivables,” November 2000 and January 2013 revisions.


                                    AUDIT REPORT OIG-AR-13-05
                                                30

                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


     	 Treasury/FMS, “Managing Federal Receivables,” May 2005.

     	 Ex-Im Bank policies and procedures:

            o	 Credit Review and Compliance Division Credit Underwriting Manual.
            o	 Policy and Planning Division Policy Handbook, June 2005.
            o	 Transaction Due Diligence Best Practices, January 10, 2008.
            o	 Internal Due Diligence Statement, September 8, 2008.
            o	 AMD Manual, March 2009.
            o	 Direct Lending Policy, June 1, 2009.
            o	 ODQ Manual, “Credit Administration, Guarantees and Loans,” January 2013.
            o	 Loan, Guarantee and Insurance Manual, January 2013; prior version titled
               Loan and Guarantee Manual, October 1999; and, as necessary, updates to
               individual chapters related to direct loans between the 1999 and 2013
               revisions.


Prior Coverage
  During the last 5 years, the Ex-Im Bank OIG and GAO have issued four reports of particular
  relevance to the subject of this report. Unrestricted reports can be accessed over the
  Internet at http://www.exim.gov/oig/reports/audits-and-evaluations.cfm (Ex-Im Bank
  OIG) and http://www.gao.gov (GAO).

  Ex-Im Bank OIG:

     	 “Actions in Response to the Financial Crisis – Direct Lending” (OIG-EV-09-02,
        September 30, 2009).

     	 “Medium Term Export Credit Program – Credit and Fraud Risk Management
        Business Process Improvement” (OIG-AR-09-04, March 30, 2009).

  GAO:

     	 “Additional Analysis and Information Could Better Inform Congress on Exposure,
        Risk, and Resources” (GAO-13-620, May 2013).

     	 “Recent Growth Underscores Need for Continued Improvements in Risk
        Management” (GAO-13-303, March 2013).

  In addition, Ex-Im Bank management engaged CC Pace Systems to perform a process
  improvement study. The objective of the study was to identify opportunities for
  streamlining that would provide a means to increase transaction volume with current
  staffing levels while reducing the overall level of effort required. The study was limited to


                                     AUDIT REPORT OIG-AR-13-05
                                                 31

                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


SPFD financing and guarantees. In its report dated, May 15, 2013, CC Pace Systems
identified a series of findings and recommendations intended to lead to short, medium, and
long-term opportunities for streamlining and process improvements in the following five
general areas: Business Environment; Organization; Policy and Procedure Governance;
Process; and Technology.

Ex-Im Bank’s Audit Committee, in cooperation with the Bank’s OCFO, also engaged KPMG
LLP to perform an analysis of industry best practices used by export credit agencies,
multilateral development banks, international lenders, commercial banks, and captive
finance companies for loan portfolio management/ KPMG’s March 17, 2013, report
identified best practices and compared them to Ex-Im Bank’s loan monitoring practices,
and made a series of recommendations including those related to staffing levels,
monitoring resources, feedback loop, risk-rating systems, and data management.




                                  AUDIT REPORT OIG-AR-13-05
                                              32

                                      EXPORT- IMPORT BANK - O FFICE OF INSPECTOR GENERAL - - - - - - - - - ­




                                                                                                                          APPENDIX            B



Previously Required Checklists for Long-Term Loans and Guarantees
  When Ex-Im Bank authorized the standard long-term loans in our sample, the Bank's Loan
  Manual included two checklists intended to ensure (1) borrower eligibility and compliance
  with Ex-Im Bank credit policies and standards, (2) completeness of loan applications, and
  (3) that all required commitment documents were obtained and maintained prior to loan
  approval. The checklists, shown below, were included as Appendix 7-A and 7-B to the
  December 2009 update to Chapter 7 of the Loan Manual.
                                                                                                                     App<.>ndh: 7-A
                                                                                                             lnfol'mation Ch<.>cklist

                                                                 Infonnation Checklist
                                                           Long-Tenn Loans and Guarantees

         This form is us<.>d to scre<.>n PC and AP applications for standard L- T loans and guarantees for completeness. Parenthetical
         references are to item numbers in the PC/AP application form_ Complete only the questions that apply to the type oftransaction
         being screened Refer to Section 7 .2-2 ofChapter 7 ofthe Loan and Guarantee Manual for guidance regarding the completion
         of this checklist.

         Transaction l'\o. - - - - - - - ­                                                                                      Infonnation
         PrO\ided'.'
         Applies To

         PCs & APs 	        I.    Application Fonn
                            Have all questions in application been completed and form signed by applicant?

         PCs Only 	         2.     Reason for PC
                            Is a PC requested? YES _          NO _        If YES, is a reason provided?

         APs Only 	         3.     L<.>nde1·'s :.\fa ndat<.> (No. 2 )
                            Is a guarantee requested? YES _             NO _     If YES, is lenders mandate attached?

         APs Only 	         4.     Export Contract (No. 4)
                            Is the export contract attached?

         APs Only 	         5.     l\Iast<.>1· Guarante<.> ..\.g1·eement (No. 14)
                            Is the transaction to be documented lmder an MGA?
                            YES _ NO _ If YES, is a completed Annex A attached?

         PCs & APs 	        6.      Proj...ct Infonnation (No. 16t)
                            Are the export items to be used in a project? YES _  NO _
                            lfYES, is the project information specified in No. 16f attached?

         PCs & APs 	        7.   ..\.ncillm-y Senice Fees (No. 18d)
                            Is No. 18d checked?    YES         NO
                            IfYES, is.the information specified in No. 18d attached?

         PCs & _.\l's 	     8.      Background Data (Attachment G)
                            Is the transaction political, financial institution., or non-financial institution risk"?
                            YES _ NO _ IfYES, is backgronnd data specified in Attachment G attached
                            for each borrower and gµarantor?

         PCs & _.\l's 	     9       Financial Statements (Attachment G)
                            Is the transaction financial institution or non-financial institution risk?
                            YES _ NO _ lfYES, are financial statements specified in Attachment G
                            attached for each borrower and guarantor?

         P C s & •.\l's 	   10.    Finandal Projections (Attachment G)
                            Does the transaction inv olv e a non-financial institution borrower or guarantor?
                            YES _ NO _ Does the financed portion (excluding exposure fee) exceed
                            $ 10,000,000? YES _ NO _ lfYES in both cases, are financial projections
                            specified in Attachment G attached for ea ch non-financial institution borrower




                                                          AUDIT REPORT OIG-AR- 13-05

                                                                               33
                                 EXPORT-IM PORT BANK - OFFI CE OF INSPECTOR GENERAL - - - - - - - - - ­




                                                                                                         Appendix 7-A
                                                                                                  Information Checklist

                 and guarantor?
Applies To                                                                                                 Information Pro\ided?
                                                                                                                YES     NO
PCs&APs 	         11.    Credit Rep011s (Attachment G)
                 Is the transaction political risk or involve a non-financial institution
                 borrower or guarantor? YES _         NO _ IfYES, is a credit report
                 attached for each non-financial institution borrower and guarantor?

PCs& APs 	        12.    Bank References (Attachment G)
                 Is the transaction financial institution or non-financial institution risk?
                  YES _ NO _ IfYES, is a creditor bank reference attached for each borrower
                  and guarantor?
PCs&APs 	         13.    Pre-clearance
                  Does the CAS require a pre-clearance for this transaction?
                  YES _      NO _     IfYES, is the pre-clearance attached?

APs Only 	        14.    Guarantor Availability
                  Is the transaction sovereign, financial institution, or non-financial institution
                  risk with a proposed guarantor? YES _ NO _ If YES, is evidence
                  attached to indicate that the proposed guarantor is prepared to act as guarantor?

PCs& APs 	        15.    Attachment B
                  Is attachment B completed?

APs Only 	        16.    Attachment D
                  Is (i) No. 18b more than $150,000 and (ii) the applicant not a foreign
                  government or an entity wholly owned by a foreign government?
                  YES _     NO _       If YES, is Attachment D completed?

PCs&APs 	         17.    Attachment E
                  Is No. 16d checked? YES        NO _      IfYES, is an
                  Attachment E completed for each used or refurbished export item?

Sn-eening Derision (Check one statement)

_    Application is complete (i.e., all required information is provided). Continue processing.

_ Application is incomplete. Request missing or incomplete items and hold application until missing or incomplete items are received.
The BD officer should withdraw an application in APS only if there is a low likelihood that the application will be complete in the
foreseeable future {See Section 7.2.3 of Chapter 7 of the Loan and Guarantee Manual for further guidance.). If an application
subse.quently becomes complete, provide date last information was received _ _ _.

_    Application is incomplete. Continue processing. Rationale and initials of Trade Finance Dhisiou credit officei· are requil'ed
in this fo1·m prior to trnmfer of an in co mph~te application to the Trade Finance Dhisiou. If application remains incomplete when
the credit memo is prepared, identify "incomplete application" as an Issue in the credit memo and provide the rationale for acceptance
of the application.

Rationale for continuing processing of incomplete application.




                                                 A UDIT REPORT OIG-AR-13-05

                                                                 34
                              EXPORT-I MPORT BANK - OFFICE OF I NSPECTOR GENERAL - - - - - - - - - ­



                                                                                      Appendix 7-B
                                                                                Compliance Checklist



                                           Compliance Checklist 

                                     Long-Term Loans and Guarantees 


Tiiis form is used to screen PC and AP applications for L-T loans and guarantees for compliance with Ex-Im Bank
credit policies and credit standards. Refer to Section 7.3 of Chapter 7 of the Loan and Guru:antee Manual for
guidance regarding completion of this checklist.

Transaction No. - - - - - - - ­                                              Meets Cl"iteria?
                                                                            YES           NO NIA*
Eligibility of Participants
Applicant
Exporter/Supplier
Buye End-user
Borrower/Guarantor
LessorlLessee
Lender
Related Participants**

Eligibility of Costs
Export Items - Nature of Goods and Services
Export Items - U.S. Content
Military Items**
Nuclear Items**
Used Equipment**
Spare Parts
Transportation/Insurance
Ancillary Service Fees**
Local Costs**
Interest During Construction**

Financing T er ms
Coverage
Currency
Cash Payment
Financed AmoUllt
Envirorunental Expo11s Program Enhancements'~*
Engineering Multiplier Progran1 Enhancements**
Initial Eligibility Date
Repayment Tenns
Utilization Period
Progress Payments**
Direct Loan Interest Rate
C Ollliliitment Fee




                                        AUDIT REPORT OIG-AR-13-05

                                                      35
                                                    EXPORT-IMPORT BANK - OFFICE OF INSPECTOR GENERAL




                                                                                                                                APPENDIX C



Flowchart: Processes for SPFD Loan Application Intake through
  Board of Directors' Approval
                                          APPLICATION / UNDERWRITING / B O A R D R E V I E W - PART 1
  Operations




                                   1.
                              Application
                               intake & ~
                              assignment


                                                                                                                       7.
                Environment
  Engineering




                                                                                                                                        11.
                                                                                                                   Posting of
                                                                      4.              5.                                       *•    Posting of
                                                                                                              •••environmental
                                    Enviro imental          *•      Case    *       Initial                                       Federal Register
                                                                                                                 impact & #10
                                      sere ening                 assignment       reviews                                            Notice of
                                                                                                                 with Policy &
                                                                                                                   Planning      Economic Impact


                                                                                                      6.                 8.
                                               3.                  4.          5.                 Feedback         Solicitation
  SPFD




                                         Acco unting        >    Case    >   Initial          -*-     to            of market
                                        syster n entry        assignment   reviews                borrower/        or financial
                                                                                                  applicant         advisors

                                                                                                                       10.
                                                                                                                                           11.
  Planning




                                                                                                                   Threshold
  Policy &




                                                             ^        4.           5.                                                   Posting of
                                                                                                                    tests for
                                                                    Case    •*• Initial                                            * Federal Register
                                                                                                                   economic
                                                                 assignment     reviews                                                 Notice of
                                                                                                                     impact
                                                                                                                                     Economic Impact
                                                                                                                    analysis
  Office of




                                                                                                                         9.
  Counsel
  General




                                                                    4.
                                                                                                              ^     Solicitation
                                                             *"   Case
                                                                                                                   of outside or
                                                               assignment
                                                                                                                  local counsel
  Financial
   Office
    Chief
  CREA
  Board




                                    •




                                                                 AUDIT REPORT O I G - A R - 1 3 - 0 5

                                                                                 36
                                                        EXPORT-IMPORT BANK - OFFICE OF INSPECTOR GENERAL



 Operations                                  A P P L I C A T I O N / UNDERWRITING / B O A R D R E V I E W - P A R T II



                                                                                          Preparation of
                                                                                          Board Memo
                     Environment
 Engineering




                                                          13.                                15 b/c/e.
                                                                       14.
                                                      Travel to                           Engineering &
                                                                  Negotiation
                                                   ». perform                              Environment
                                                                 ~* of term
                                                     on-site due                          and Economic
                                                                     sheet
                                                      diligence                           Analysis memo

                                                                                              15 a/f/g.
                                                         13.
                                        12.                                14.            Main Board and                                   2 0.
                                                     Travel to                                                       18.
 SPFD




                                      Credit                           Negotiation         Credit Memo;                              Finalization
                                                     perform                                                       OECD
                                    analysis &                           of term     >     Expense Fee                           - • • o f Board
                                                    on-sit e due   >
                                                                                                                 Notification
                                   due diligence                          sheet            Calculation &                                 Me mo
                                                     diligence
                                                                                           Budget Costs
                                                                                                             18. OECD
 Policy & Planning




                                                                                                            Notifications
                                                                                                             19. Solicit
                                                                                               15 e.
                                                                                                          - & include
                                                                                            Economic
                                                                                                            econ. impact
                                                                                          Impact Analysis
                                                                                                             comments
                                                                                                             from Fed.
                                                                                                              Agencies

                                                                           14.             15 a.
  Office of

  Counsel
  General




                                                                       Negotiation      Main Board
                                                                   >     of term      ^Memo & Credit
                                                                          sheet           Memo



                                                                                               15 g.
  Financial
   Office
    Chief




                                                                                      >    Calculation of
                                                                                          program budget
                                                                                               costs




                                                                                     _^15 d. Country
  CREA




                                                                                       risk & economic
                                                                                            analysis


                                                                                          16. Pre-                                                      21.
                                                                                                                       17.
  Board




                                                                                        Board Briefing                                         >       Board
                                                                                                                 Initial Board
                                                                                     ->• with Senior                                                presentation
                                                                                                                   briefings
                                                                                        Management                                                   & approval

Source: "Description of the Ex-lm Bank Board Review and Presentation Process," provided by SPFD.




                                                                          AUDIT REPORT O I G - A R - 1 3 - 0 5

                                                                                            37
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                               APPENDIX D


Key Participants in the Project Finance Application Process
  The following 10 key participants are involved in Ex-Im Bank’s project finance application
  process:

   1.	 Business Development. Responsible for all contacts by and with prospective applicants
       regarding SPFD programs.
   2.	 Operations & Data Quality (ODQ). Processes requests for Letters of Interest and
       maintains the files.
   3.	 Structured & Project Finance Division (SPFD). Responsible for managing final
       commitment applications after the application has been reviewed by ODQ; reviews all
       project documents; analyzes the project economics; structures the financing; negotiates
       issues; manages and reviews the work of financial advisors; and presents credit
       recommendations to the Board of Directors.
   4.	 Office of General Counsel (OGC). Assigned attorney provides legal guidance; selects and
       oversees outside counsel; participates in negotiations, documentation, and making the
       project financing operative; and remains involved until full repayment is reached.
   5.	 Engineering & Environment Division (E&E). Determines the eligibility of exports;
       ensures that projects are technically viable and comply with Ex-Im Bank's environmental
       guidelines- reviews reports prepared by lenders’ technical and environmental
       consultants; and determines the need for economic impact analysis.
   6.	 Country Risk and Economic Analysis Division. An economist is consulted on each case
       according to country responsibility.
   7.	 Asset Management Division (AMD). Once a transaction has been made operative and
       after the first disbursement, SPFD transfers the transaction to AMD for monitoring during
       the remainder of the project. The transfer process includes a monitoring memo drafted
       by outside counsel. AMD receives a full set of the finance documents from SPFD at the
       beginning of the transfer process.
   8.	 Financial Advisor. Due to the small SPFD staff and the labor intensive nature of project
       finance transactions, financial advisors assist SPFD loan officers in the analysis of
       financial information and project documents, and to structure the transaction.
   9.	 Outside Counsel. Due to limited resources and the complex contractual arrangements
       that require significant legal resources, outside counsel is engaged for each transaction.
       At the direction of OGC, outside counsel undertakes legal due diligence, including
       document reviews, represents Ex-Im Bank in key negotiations together with in-house
       counsel, and drafts relevant loan and related financing agreements.
   10. Other External Advisors. Independent engineers and environmental engineers may be
       appointed by lenders to the transaction. Depending on the type of transaction, additional
       consultants may be required including: marketing, reserve (for oil and gas projects),
       mining (for mining projects), insurance, and transportation consultants.

                                     AUDIT REPORT OIG-AR-13-05
                                                 38

EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                   APPENDIX E




   Management Comments





           AUDIT REPORT OIG-AR-13-05
                       39
                 EXPORT-IMPORT BANK- OFFICE OF INSPECTOR GENERAL - - - - - - - - - ­




                                   EXPORT-IMPORT B ANK 

                                    OF THE   UNITED   STATES 





                                     September 20, 2013




Osvaldo Gratac6s
Inspector General
Office of the Inspector General
Export-Import Bank of the United States
811 Vermont Avenue NW
Washington, DC 20571

Dear Inspector General Gratac6s,

Thank you for providing the Export-Import Bank of the United States ("Ex-Im Bank" or "the
Bank") Management with the Office of the Inspector General's (OIG) report on "Ex-Im Bank' s
Management of Direct Loans and Related Challenges" (September 5, 2013). Management
continues to support the OIG's work and audits which complement the Bank's efforts to
continually improve its processes. Ex-Im Bank is proud of the strong and cooperative
relationship it has with the OIG.

Management is pleased that the OIG has recognized the Bank's good faith efforts to improve
internal controls and the overall credit program management. In addition, Management
appreciates the OIG recognizing staffing constraints as a major management challenge for the
Bank. The report on "Ex-Im Bank's Management of Direct Loans and Related Challenges"
makes four recommendations in the areas of maintaining additional documentation to support
Bank financing, the formal adoption of and compliance with OMB and Treasury policies, and an
evaluation ofthe Bank's recordkeeping practices. Management appreciates and concurs with all
recommendations.




                        811 VERMONT AVENUE, N.W.   WASHINGTON,   D.C. 20571




                              AUDIT REPORT OIG-AR-13-05

                                              40
                        EXPORT-IMPORT BANK - OFFICE OF INSPECTOR GENERAL - - - - - - - - - ­


     ---------             -




      Recommendation 1: To strengthen management of its direct loans, Ex-Im Bank should update
      the Ex-Im Bank Loan, Guarantee and Insurance Manual to require loan officers to maintain
      detailed documentation regarding the need for Ex-Im Bank support.

      The Bank concurs with this recommendation. Bank staff routinely addresses the issue of
      additionality in the Board Memorandum and briefings to the Ex-Im Bank Board of Directors. In
      addition, in compliance with Section 10 of the Export-Import Bank Reauthorization Act of2012,
      the Bank has implemented additional procedures to reflect the categorization of the reasons for
      Bank support for each direct loan. With the modification of the long-term application and the
      detailed guidance found in the Categorization of Transaction Guide (Appendix 7-C) in Ex-Im
.I
      Bank's Loan, Guarantee and Insurance Manual, staff has additional information and tools
      necessary to have detailed documentation regarding the need for Ex-Im Bank support. In order
      to facilitate the loan officers to appropriately document the files, the Credit Policy Division will
      work with the Policy and Planning Group and the business units to develop mechanisms to
      document corroboration of additionality. Some mechanisms will require the loan officer to
      maintain detailed documentation in the files regarding the need for Ex-Im Bank support, and this
      requiremen_t and related mechanisms will be updated in the Ex-Im Bank Loan, Guarantee and
      Insurance Manual by the end of the calendar year. Importantly, to further encourage staff to
      properly document additionality, Credit Policy is developing a post-authorization review process
      for long-term transactions to assess adherence to credit policies and procedures, which would
      include additionality.

       Recommendation 2: To strengthen management of its direct loans, Ex-Im Bank should formally
       adopt applicable Federal credit program policies and guidance, including OMB Circular No.
       A-129 and Treasury/FMS, "Managing Federal Receivables," by revising existing agency credit
       program policies and procedures as necessary to specifically address provisions of those
       documents.

       The Bank concurs with this recommendation. Management appreciates the OIG recognition that
       Ex-Im Bank's policies are largely consistent with many fundamentals of Federal credit program
       policies. The B;µik has submitted a draft A-129 Implementation Plan to OMB and is awaiting
       comments and approval. Once approved, the Bank's Loan, Guarantee and Insurance Manual
       will be revised to reference requirements of OMB Circular A-129 and Treasury/PMS,
       "Managing Federal Receivables."

       Recommendation 3: To strengthen management of its direct loans, Ex-Im Bank should develop
       a systematic quality control review program or other mechanism(s) necessary to prevent, detect,
       and correct Ex-Im Bank staff non-compliance with Federal and agency credit program policy.




                                      AUDIT REPORT OIG-AR-13-05

                                                      41
                 EXPORT-IMPORT BANK - OFFICE OF INSPECTOR GENERAL - - - - - - - - - ­




The Bank concurs with this recommendation. The Credit Management Group has entered into
an operating agreement with the Export-Finance Group and Small Business Group, pursuant to
which it will expand the scope ofthe Credit Policy Division and the Credit Review and
Compliance Division (CRC) through post-authorization reviews oflong-term transactions
underwritten in Structured and Project Finance and the Transportation Division in order to assess
compliance with Federal and Ex-Im Bank credit program policy. Credit Policy is presently
working on developing standardized procedures for implementing the post-authorization reviews
which it anticipates being fully operational by calendar year-end.

Recommendation 4:_ To improve records1nanagement practices, Ex-Im Bank's Chief
Information Officer (CIO) and Enterprise Risk Committee (ERC) should jointly evaluate Ex-Im
Bank's recordkeeping practices to: (a) identify operational risks and impacts on Ex-Im Bank's
ability to achieve credit program goals and objectives; and (b) develop and implement a plan to
timely address deficiencies f9und and ensure compliance with applicable Federal laws,
regulations, and guidance while balancing the needs of Ex-Im Bank's business units.

The Bank concurs with this recommendation. During FY2014, the Bank's CIO will participate
in the ERC to evaluate the Bank's recordkeeping practices and implement improvements in this
area to address any deficiencies and operational risks. The Bank has made recent progress in this
area and has submitted a draft Media-Neutral Records Schedule to the National Archives and
Records Administration (NARA) and expects it to be approved and implemented in FY 2014.

Additionally, the Bank is developing a Smart Form Initiative, a result of the Bank's Total
Enterprise Modernization (TEM) effort, allowing for electronic submission intake for the Bank's
long-term and working capital programs. This system will also include an e-document
management system for submitting attachments and supporting information.

We thank the OIG for your efforts to ensure the Bank's policies and procedures continue to
improve, as well as the work you do with us to protect Ex-Im funds from fraud, waste, and
abuse. The Bank appreciates the cooperative relationship between the OIG and Bank
management. We look forward to continuing to work closely with the Office of the Inspector
General.




                                       . Sin::: ~
                                            A. McAdams
                                            perating Officer
                             Export-Import Bank of the United States




                               AUDIT REPORT OIG-AR-13-05

                                              42
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Acknowledgements
  Key contributors to this report were Christopher Parrish, Audit Project Manager (through
  May 2013); Mathew Wiles, Lead Auditor; and Maria Tse, Auditor.


To Report Fraud, Waste, or Abuse, Please Contact:
  E-mail:	            IGhotline@exim.gov

  Telephone:	         1-888-OIG-EXIM (1-888-644-3946)

  Fax:	               (202) 565-3988

  Address:	           Office of Inspector General

                      Export-Import Bank of the United States

                      811 Vermont Avenue, NW

                      Suite 138

                      Washington, DC 20571



Comments and Suggestions
  If you wish to comment on the quality or usefulness of this report or suggest ideas for
  future audits, please contact Rebecca Sharek, Assistant Inspector General for Audits, at
  Rebecca.Sharek@exim.gov or call (202) 565-3908. Comments, suggestions, and requests
  can also be mailed to the attention of the Assistant Inspector General for Audits at the
  address listed above.




                                    AUDIT REPORT OIG-AR-13-05
                                                43

Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
